DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General

         Improvements Needed in TSA’s 

       Federal Flight Deck Officer Program





   This report represents a public summary of the full report, which is
              designated as Sensitive Security Information




OIG-07-14                                    December 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          December 5, 2006

                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act
of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the Transportation Security Administration’s implementation of the Federal
Flight Deck Officer program and identifies areas where operational effectiveness can be improved. It
is based on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

                                                                          Audit
OIG                                                                       Report
Department of Homeland Security
Office of Inspector General

Summary

                Subsequent to the September 11, 2001, terrorist attacks, Congress passed the
                Homeland Security Act of 2002, which is also referred to as Public Law 107
                296. Title XIV of the Act is the Arming Pilots Against Terrorism Act
                (APATA), as amended, and establishes the Federal Flight Deck Officer
                (FFDO) program. The FFDO program selects, trains, deputizes, arms with
                handguns, and supervises volunteer airline pilots and other flight deck
                crewmembers for the purpose of defending the flight decks of passenger and
                cargo aircraft.

                Our audit objective was to determine whether the Transportation Security
                Administration’s (TSA) procedural or process requirements presented barriers
                to pilot participation and performance in the FFDO program.

                TSA was required to establish the procedural requirements to carry out the
                program within 3 months of the enactment of the APATA. These procedural
                requirements were to address such items as:

                •   The type of firearm.
                •   The type of ammunition.
                •   The standards and training needed to qualify.
                •   Storage and transportation of firearms.
                •   Methods for identifying and selecting a pilot for the FFDO program.

                We surveyed a sample of FFDOs to identify pilot concerns about the FFDO
                program. Pilot concerns included not being given time off to attend training,
                the remote location of the training and the amount of time used to get to the
                training site, TSA’s weapons carriage policy, and the type of credentials used
                to identify FFDOs. These concerns may have dissuaded pilots from
                participating in the program, thus reducing the number of FFDOs.

                In December 2005, management of the FFDO program was assigned to TSA’s
                Office of Law Enforcement-Federal Air Marshal Service (OLE-FAM). TSA’s
                OLE-FAM established focus groups to foster communications among the
                FFDO community, the airline industry, and professional associations; and to
                address FFDO operational concerns.

                Also, OLE-FAM management established a FFDO working group to assess
                recommendations on proposals concerning FFDO credentials and badges,

                      Improvements Needed in TSA’s FFDO Program 


                                         Page 1 

checkpoint requirements, weapons issues (including transport, storage, and
qualifications), communications protocols, training, and industry liaison.

While TSA has now trained and deputized FFDOs and has addressed various
procedural and process issues, more needs to be accomplished to maximize
the use of FFDOs on international and domestic flights. TSA continue to work
with FFDOs, Federal Security Directors, and industry to improve FFDO
program effectiveness.




      Improvements Needed in TSA’s FFDO Program


                        Page 2 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                       Improvements Needed in TSA’s FFDO Program

                                          Page 2
